 U.S. Department of the Interior
 Office of Inspector General




         ADVISORY LETTER


SELECTED ASPECTS OF THE OPERATION OF
 THE UNITED MINE WORKERS OF AMERICA
        COMBINED BENEFIT FUND

              REPORT NO. 01-I-188
                FEBRUARY 2001
The CBF was created by the Coal Industry Retiree Health Benefit Act of 1992 (26 U.S.C.
§ 9701-9722), replacing two health benefit plans established in 1950 and 1974 that were
experiencing severe financial difficulties. Commonly known as the Coal Act, this legislation
holds coal operators and related companies responsible for paying monthly premiums for the
costs of health benefits relating to their retired mine workers and dependents (known as
"assigned" beneficiaries). In addition, if the OSM transfer explained in the paragraphs that
follow is insufficient, coal operators and related companies are required to pay a monthly
premium for the health care costs of retired mine workers (and dependents) who were
employed by coal operators that are no longer in business, have no related successor company,
or whose former employer cannot be identified (known as "unassigned" beneficiaries). Also,
these companies pay a premium for the death benefits covering all beneficiaries. As of
October 1999, the CBF served a total population of 65,261, consisting of 48,289 (74 percent)
assigned beneficiaries and 16,972 (26 percent) unassigned beneficiaries.

Under the Coal Act, the Social Security Administration (SSA) is responsible for computing
the per beneficiary health premium and for assigning the retired mine workers to their former
employers or related companies. In September of each year, the SSA provides this
information to the UMWAF, where the list of assigned beneficiaries is reviewed and adjusted
as necessary. The UMWAF computes the premium liability for each coal operator by
multiplying the per beneficiary health premium by the number of assigned beneficiaries, and
the UMWAF issues the bills to the operators on a monthly basis. At the beginning of fiscal
year 2000, the UMWAF prepared a total of 401 premium assessment bills for coal operators
and related companies.

Although the Coal Act obligates operating coal companies to pay the health care premiums for
unassigned beneficiaries, the Act provides for a Federal subsidy. Specifically, the Coal Act
authorizes a transfer of up to $70 million of the interest earned on the principal balance of the
Abandoned Mine Reclamation Fund (AML Fund)1 in a fiscal year to the CBF to pay the
estimated expenditures of unassigned beneficiary premiums. If interest is not sufficient to
cover the estimated expenditures, the OSM may access a reserve consisting of interest earned
from October 1, 1992 through September 30, 1995. In accordance with the Coal Act, the OSM
has completed the transfers to the CBF at approximately the beginning of each fiscal year since
fiscal year 1996. From fiscal years 1996 through 2000, the OSM transferred $233.8 million
to the CBF. The amounts transferred are based on bills submitted by the UMWAF, which
include current medical and administrative costs, as well as any adjustments to these costs for
prior years.




1
 The Surface Mining Control and Reclamation Act of 1977 established the Abandoned Mine Reclamation
Fund (30 U.S.C. §1231) for the purpose of reclaiming and restoring land and water resources adversely
affected by past coal mining. Contributions to this fund are derived from fees assessed on coal operators for
each ton of coal produced. As manager of the Abandoned Mine Reclamation Fund, the OSM invests the
unappropriated balance of the fund in short-term U.S. Treasury bills. The Abandoned Mine Reclamation Fund
is commonly referred to as the AML Fund.

                                                     2
With an average beneficiary age of 78 and the CBF statutorily closed to additional retirees,
the population served by the CBF gradually decreases in size upon the deaths of the
beneficiaries. To illustrate, the population of about 112,000 beneficiaries at the CBF’s
creation in 1992 decreased to 65,261 as of October 1999, during which time the annual
mortality rate of the beneficiaries rose from 5 percent to about 8 percent. An analysis
prepared by the UMWAF’s actuarial consultant projected that the CBF will serve a
diminishing number of beneficiaries each year, estimating that the CBF will have 337
beneficiaries in 2045.

FINANCIAL CONDITION OF THE CBF

The financial condition of the CBF has deteriorated since the mid-1990s, and should this trend
continue, the CBF may not be able to meet its future financial obligations. This situation
developed primarily because the monthly premiums billed to the coal operators for the
assigned beneficiaries are significantly less than the costs actually incurred for their health
care. In contrast, the Coal Act provides for the full recovery of medical and administrative
costs incurred for the unassigned beneficiaries, which is accomplished by a transfer of funds
from the interest earned on the Abandoned Mine Reclamation Fund. Accordingly, the financial
problems of the CBF are not attributable to the costs associated with unassigned beneficiaries
or the OSM’s transfer of funds.

Under the Coal Act, the SSA computes the per beneficiary premium from which the UMWAF
determines the premium liability for the coal operators based on the number of beneficiaries
assigned to each operator. Since fiscal year 1996, however, the per beneficiary premium for
the assigned beneficiaries has been less than the health costs, and the disparity has increased
in subsequent years, as shown in Table 1.

                        Table 1. Per Beneficiary Premium Analysis
                                                       Fiscal Year

       Description           1996        1997        1998            1999           2000
 Actual cost per             $2,219      $2,497       $2,919          $3,316          $3,562
 beneficiary                                                     (Estimated)     (Estimated)
 Premium set by SSA            2,200       2,280        2,343          2,420           2,503
 Difference
  (unrecovered costs)            $19       $217         $576            $896          $1,059

We believe the two principal reasons accounted for the variance between the actual costs per
beneficiary and the premiums set by SSA. First, as prescribed by the Coal Act, the SSA
computes the premium on the basis of the actual payments provided to beneficiaries under the



                                              3
1950 and 1974 health benefit plans for the year beginning July 1, 1991, with annual
adjustments for inflation based on the Consumer Price Index. This inflation factor represents
the cost increases associated with the health care of the general public and does not accurately
adjust for the additional costs incurred for the CBF population, which is much older than the
general population and requires greater levels of medical care. For example, the elderly
generally have a greater need for prescription drugs, and the costs of prescription drugs have
significantly exceeded the costs of other medical services provided in recent years.
Therefore, the premium does not take into account these increased costs for the CBF.

Second, a lawsuit brought by an association of coal industry employers and several assigned
operators challenged the methodology on which the SSA had based its premium computations
since 1993. The principal change was to adjust the amount actually received by the UMWAF
for Medicare reimbursements. The resulting court decision2 in July 1995 reduced the
premiums charged the coal operators by about 10 percent. In addition, subsequent legal
actions on this matter resulted in the UMWAF’s establishing a reserve to refund about $37
million to the coal operators for the differential amounts between the premiums actually
collected and the premiums recalculated in accordance with the court order. Consequently,
these legal actions have further reduced the revenues available for the CBF.

The effect that the shortfall in the premium assessment for assigned beneficiaries has on the
CBF is illustrated in Table 2.

                            Table 2. Unrecovered Health Costs

                                                                  Fiscal Year
    Description                              1996          1997          1998           1999
    Assigned beneficiaries                    70,307       63,414         58,556          52,324
    Multiplied by the difference in              $19         $217           $576            $896
     per beneficiary premium                                                           (Estimated)
     (see Table 1)
    Unrecovered costs                           $1.3         $13.8         $33.7            $46.9
    (in millions)

As shown in Table 2, the costs of providing health care for the assigned beneficiaries have
exceeded the revenues generated at an increasing rate. As a result, the CBF’s available
financial resources to compensate for the shortfall have gradually declined, as shown in
Table 3.



2
National Coal Association v. Chater, Northern District of Alabama, July 1995. Upheld by the Eleventh
Circuit Court of Appeals (81 F.3d 1077) in 1996.

                                                 4
                                Table 3. CBF Net Asset Balance
                                                                        Fiscal Year
                                           1996             1997            1998               1999
     Net asset balance
      (in millions)                        $111.1           $95.5             $24.7            ($12.2)

In fiscal year 1999, the financial statements for the CBF showed a deficit asset balance for the
first time. In addition, the actuarial consultant for the UMWAF reported in April 2000 that the
deficit will grow in future years, estimating the deficit to be $611.5 million at the end of fiscal
year 2009.

In an effort to maintain the solvency of the CBF, the President and the Congress have taken
actions in recent years to provide special appropriations for the fund. Specifically,
$68 million was appropriated in fiscal year 2000 from the AML Fund interest reserve,3 and
the President’s proposed budget for fiscal year 2001 contained a $49 million appropriation
from the general fund in addition to the regular OSM transfer, with a total of $346 million to
be provided over the next 10 years. The proposed budget would also reverse the reduction
in the premium that was caused by the court decision in National Coal Association v. Chater.
Further, a bill was introduced in March 2000 in the U.S. House of Representatives
(H.R. 4144) and approved by the House Resources Committee in July 2000 that would
appropriate an additional $96.8 million from interest accumulated on the AML Fund.

We examined the potential effect of the special appropriations on the long-term solvency of
the CBF. Our analysis was based on the actuarial projections of the UMWAF’s consultant for
the CBF, and we assumed that the level of medical benefit coverage provided to beneficiaries
would not change and that no additional funding assistance would be provided. Our analysis
disclosed that the financial support provided by these special appropriations may not be
sufficient to ensure the long-term solvency of the CBF. More specifically, we concluded that
if both of the special appropriations are enacted, the CBF should maintain a positive asset
balance through about fiscal year 2005.

We believe that CBF trustees, coal operators, the UMWAF, and cognizant Federal agencies
should work together to address the issue concerning the long-term solvency of the CBF. For
example, a committee similar to the Coal Commission4 in 1990 could be convened to monitor
and recommend solutions for the beneficiaries’ health care. Two solutions that should be
considered are (1) amending the Coal Act to require that the per beneficiary premium charged



3
 The reserve of the AML Fund had accumulated $132.5 million in interest as of September 30, 1995. In
December 1999, the OSM, at the direction of the Department of the Interior and Related Agencies
Appropriations Act of 2000, transferred $68 million from the reserve to cover a shortfall in CBF premium
accounts. As a result of the transfer, the reserve had a balance of $64.5 million as of June 1, 2000.
4
 The Coal Commission included representatives of the coal industry, coal employees, the health insurance
industry, the medical profession, academia, and the government.

                                                   5
for the assigned beneficiaries equals the costs actually incurred for the beneficiaries’ health
care and (2) increasing the level of financial support from Federal sources. If the financial
condition of the CBF does not improve, it may become necessary to reduce the amount of
health care benefits provided to the beneficiaries to a level commensurate with premiums
collected.

IMPROVEMENTS FOR THE TRANSFER PROCESS

The process of computing the annual transfer bill was very complex, and as a result, the
transfer bills were vulnerable to error and delay as follows:

           - The transfer bills for fiscal years 1999 and 2000 had several computational errors
that resulted in net understated transfers of $885,000 and $427,000, respectively, or about 1
percent of the transfer bills. Although these amounts did not represent a material misstatement
of the bills, the potential exists for errors to occur that are more significant in amount.
Moreover, the potential for errors increases each year because the bill, which may contain
adjusted data 5 for transfers made in prior years, continuously grows in detail and complexity.
During our discussions in March 2000,UMWAF officials agreed to conduct an independent
verification of the transfer bill and supporting computational worksheets before submitting the
bill to the OSM. Although this quality control review should improve the accuracy of the bill,
the complexity of the bill will continue to grow indefinitely because prior year transfers
remain subject to future adjustment. For example, the bill for fiscal year 2000 included
adjustment computations for the amounts transferred in each of the previous 4 years. In turn,
the bill for fiscal year 2001 may include adjustments for the previous 5 years.

          - Because the SSA was approximately 1 month late in submitting the list of
unassigned beneficiaries for the fiscal year 2000 transfer, the UMWAF was unable to prepare
the transfer bill in a timely manner. Consequently, the OSM was more than 1 month late in
executing its transfer. We attributed the delay to the assignment provisions of the Coal Act,
which require the SSA to assign each retired coal worker to the coal operator or related
company that employed the worker. This is a complicated and time-consuming process, since
each of the approximately 65,000 beneficiaries (coal workers and their dependents) that make
up the CBF population are subject to reclassification because of appeals and litigation from
the coal operators. Additionally, if a worker or a dependent is reclassified in one year, all
other years are also subject to adjustment.

We believe that an alternative approach for determining the transfer amount should be
considered and that the principal parties involved in the transfer (UMWAF, OSM, and SSA)
should work together to identify a more efficient process. We also believe that the UMWAF,
as the union which represents the retired mine workers, and the coal operators, as the original
funding source for the health care of all CBF beneficiaries, should participate in this endeavor.


5
 Adjustments are necessary, for example, to revise the number of unassigned beneficiaries, to update health
care cost data, or to correct computational errors made in prior transfer bills.

                                                    6
The coal operators pay the health care costs in two ways. First, the costs related to assigned
beneficiaries are billed to the operators through direct premium assessments. Second,
although the OSM makes the interest transfer to pay the costs related to unassigned
beneficiaries, the AML Fund from which the interest is earned is derived from the coal
industry through tonnage assessments on the coal produced.

One suggestion to simplify and expedite the fund transfer would involve eliminating the
detailed computations associated with the preparation of the transfer bill. That is, assuming
that the transfer bill stabilizes in amount, future bills could be based on an average amount or
an extrapolation of prior year transfers. An adjustment to the transfer bill would be necessary
only to reflect the declining population of the unassigned beneficiaries.

ADMINISTRATIVE COSTS

The OSM has paid the full amount of administrative costs contained in each transfer bill since
fiscal year 1996 in accordance with a memorandum of understanding with the UMWAF.
However, OSM officials recently questioned this practice based on (1) the "Congressional
Record" (138 Cong. Rec. §17578 and 17604) for the Coal Act, which states that "only
assigned operators are responsible for paying the Combined Fund’s cost of providing benefits"
and (2) a December 29, 1999 letter from the Office of the Solicitor to the Director of Budget,
Department of the Interior, which stated, "We could support the position that the costs of
providing benefits under the CBF should be borne by the assigned operators." The OSM also
asked that we examine this issue.

Based on our review, we concluded that the transfer bill should include administrative costs.
The Coal Act, which amended the Surface Mining Control and Reclamation Act (30 U.S.C.
§ 1232(h)) to provide for the transfer from the Abandoned Mine Reclamation Fund, stipulates
that the transfer not exceed the amount of the expenditures recorded for the CBF’s unassigned
beneficiaries premium account. This account, established under the Coal Act (26 U.S.C. §
9704(e)), consists of the unassigned beneficiaries premiums and an allocation of
administrative costs. Therefore, notwithstanding the legislative history contained in the
"Congressional Record," the actual language of the applicable laws requires the transfer to
include administrative costs.

Further, when considered in its full context, we believe that the "Congressional Record"
statement does not preclude administrative costs from being paid. The statement that the
assigned operators are responsible for paying the costs of providing benefits merely
recognizes that the Congress intended the assigned coal operators and the related companies
to assume primary financial responsibility for the CBF. The Congress did not want the OSM
to assume any role in the transfer process other than as a funding source to subsidize the health
premium costs relating to unassigned beneficiaries.




                                               7
To illustrate, the "Congressional Record" (138 Cong. Rec. § 17578 and 17603) states, "The
essence of the Conference Agreement is that those companies which employed the retirees in
question, and thereby benefitted from their services, will be assigned responsibility for
providing the health care benefits promised in their various collective bargaining agreements."
In reference to the annual transfer made by the OSM, the "Congressional Record" (§ 17578 and
17605) further states, "This money may be used solely for the purpose of subsidizing the cost
of providing health care to unassigned beneficiaries." In summary, consistent with this
legislative history and as required by the Coal Act, we believe that the OSM is obligated to
include administrative costs in the transfer.

Since this letter does not contain any recommendations, a response is not required.

This advisory letter will be listed in our semiannual report to the Congress, as required by
Section 5(a) of the Inspector General Act (5 U.S.C. app. 3).




                                              8
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address

                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                 Outside the Continental United States
                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           HOTLINE
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
